CERTIFICATE OF COMPLIANCE
Case No.
Caption: American Civil Liberties Union v. United
States of America
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 8,446 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the fore­
going is true and correct.
. Executed on April 23, 2021.

Nicole Garcia .fj
Record Press, Inc.

Sworn to before me on
April 23, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
ission Expires November 10, 2023
G o.

Notary Public

